Legal Printers

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

February 6, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re 19-599: Samuel C. Mohorne v. Beal Bank, et al.
Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on February 6, 2020, I
caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Dora Faye Kaufman
Liebler, Gonzalez & Portuondo
Courthouse Tower-25th Floor, 44 West Flagler Street
Miami, FL 33130
305-379-0400
dfk@lgp law. com
This service was effected by depositing three copies of the Petition for Rehearing
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting a digital copy via electronic mail.
Sincerely,
>

Jack Suber, Esq.
Principal

USA KAY NICHOLSON
,
Notary Public
] State of Maryland
' Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 6th day of February 2020.

RECEIVED
FEB 1 1 2020

